TN

Q@OCKLE

2311 Douglas Street Le ga 1B rie f s E-Mail Address:

Omaha, Nebraska 68102-1214

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

VILOX TECHNOLOGIES, LLC, EUGENE H. LUOMA,
AND DALI WIRELESS INC.,
Cross-Petitioners,

v.
ANDREI IANCU, UNDER SECRETARY OF COMMERCE
FOR INTELLECTUAL PROPERTY AND DIRECTOR,
U.S. PATENT AND TRADEMARK OFFICE,
Cross-Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 26th day of August, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the CONDITIONAL CROSS-PETITION FOR WRIT OF
CERTIORARI BY VILOX TECHNOLOGIES, LLC, EUGENE H. LUOMA AND DALI WIRELESS INC. in the above
entitled case. All parties required to be served have been served by third-party commercial carrier for delivery within 3
calendar days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for: r
ROBERT GREENSPOO! CHARLES H. DAVIS
Counsel of Record ERIC F. CITRON
FLACHSBART & GOLDSTEIN & RUSSELL, P.C.
GREENSPOON, LLC 7475 Wisconsin Ave.
333 N. Michigan Avenue, Suite 850
Suite 2700 Bethesda, MD 20814
Chicago, IL 60601 (202) 362-0636
312-551-9500 cdavis@goldsteinrussell.com
rpg@fg-law.com
Counsel for CRISTOFER LEFFLER
Vilox Technologies, LLC FOLIO LAW GROUP PLLC
14512 Edgewater Lane NE
EUGENE H. LUOMA Lake Forest Part, WA 98155
4423 Normanna Road (206) 512-9051
Duluth, MN 55803 cris.leffler@foliolaw.com
218-391-8494 Counsel for
gene@zipitclean.com Dali Wireless Inc.

Pro se for Eugene H. Luoma

Subscribed and sworn to before me this 26th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska
A RENEE J. GOSS . tos Qudraw- &. GL
My Comm. Exp. September 5, 2023

Notary Public Affiant 40074

  
   

 

 
Counsel for Federal Government:

Jeffrey Wall

Acting Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

Direct: 202-514-2217

Email: supremectbriefs@usdoj.gov

Counsel for GT Water Products in 19-2315 (adverse Mr. Luoma):
Alexander R. Schlee

Schlee IP International, PC

917 Manhattan Beach Blvd.

Manhattan Beach, CA 90266

Direct: 310-545-9851

Email: info@schleeip.com
